                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A11090058                                                                         Page 1 of 1




                  Our office received an allegation that the proposals 1 of a Pf contained plagiarized material.
          Our review of the matter determined that the plagiarism was minimal and a questionable research
          practice warning letter will be sent to the Subject. Accordingly, this case is closed with no further
          action taken.




NSF OIG Form 2 (ll/02)
